March 19, 2012

TO:            Marilyn Tavenner
               Acting Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Gloria L. Jarmon/
               Deputy Inspector General for Audit Services


SUBJECT:       Review of Medicare Payments Exceeding Charges for Outpatient Services
               Processed by Wisconsin Physicians Service Insurance Corporation but
               Transitioned to TrailBlazer Health Enterprises, LLC, in Jurisdiction 4 for the
               Period January 1, 2006, Through June 30, 2009 (A-07-11-04183)


Attached, for your information, is an advance copy of our final report on Medicare payments
exceeding charges for outpatient services processed by TrailBlazer Health Enterprises, LLC
(TrailBlazer), in Jurisdiction 4. We will issue this report to TrailBlazer within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or
Patrick J. Cogley, Regional Inspector General for Audit Services, Region VII, at (816) 426-3591
or through email at Patrick.Cogley@oig.hhs.gov. Please refer to report number A-07-11-04183.


Attachment
                                                             O FFICE OF A UDIT S ERVICES , R EGION VII
March 22, 2012                                                     601 E AST 12 T H S TREET, R OOM 0429
                                                                            K ANSAS C ITY , MO 64106
Report Number: A-07-11-04183

Ms. Melissa Halstead Rhoades
Area Director & Medicare Chief Financial Officer
Financial Management Operations Division
TrailBlazer Health Enterprises, LLC
8330 LBJ Freeway, 11.2402
Dallas, TX 75243

Dear Ms. Rhoades:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Payments Exceeding Charges for
Outpatient Services Processed by Wisconsin Physicians Service Insurance Corporation but
Transitioned to TrailBlazer Health Enterprises, LLC, in Jurisdiction 4 for the Period
January 1, 2006, Through June 30, 2009. We will forward a copy of this report to the HHS
action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Debra Keasling, Audit Manager, at (816) 426-3213 or through email
at Debra.Keasling@oig.hhs.gov. Please refer to report number A-07-11-04183 in all
correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Melissa Halstead Rhoades


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
  Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL


  REVIEW OF MEDICARE PAYMENTS
EXCEEDING CHARGES FOR OUTPATIENT
 SERVICES PROCESSED BY WISCONSIN
  PHYSICIANS SERVICE INSURANCE
 CORPORATION BUT TRANSITIONED TO
 TRAILBLAZER HEALTH ENTERPRISES,
   LLC, IN JURISDICTION 4 FOR THE
      PERIOD JANUARY 1, 2006,
      THROUGH JUNE 30, 2009


                         Daniel R. Levinson
                          Inspector General

                            March 2012
                           A-07-11-04183
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS), which administers the program,
contracts with Medicare contractors to process and pay Medicare claims submitted for outpatient
services. The Medicare contractors use the Fiscal Intermediary Standard System and CMS’s
Common Working File (CWF) to process claims. The CWF can detect certain improper
payments during prepayment validation.

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains details regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of billable
units administered, as defined by the HCPCS code description. In addition, providers should
charge Medicare and other payers, such as private insurance companies, uniformly. However,
Medicare uses an outpatient prospective payment system to pay certain outpatient providers. In
this method of reimbursement, the Medicare payment is not based on the amount that the
provider charges. Consequently, the billed charges (the prices that a provider sets for its
services) generally do not affect the current Medicare prospective payment amounts. Billed
charges generally exceed the amount that Medicare pays the provider. Therefore, a Medicare
payment that significantly exceeds the billed charges is likely to be an overpayment.

During our audit period (January 2006 through June 2009), Wisconsin Physicians Service
Insurance Corporation (WPS) processed approximately 55.6 million line items for outpatient
services in Jurisdiction 4, of which 408 line items had (1) a Medicare line payment amount that
exceeded the line billed charge amount by at least $1,000 and (2) 3 or more units of service.
Effective October 2010, the claims that were originally processed by WPS in Jurisdiction 4 were
transitioned to TrailBlazer Health Enterprises, LLC (TrailBlazer). Thus, the 408 line items will
be adjudicated by TrailBlazer, and we are issuing our report to TrailBlazer. (A single Medicare
claim from a provider typically includes more than one line item. In this audit, we did not
review entire claims; rather, we reviewed specific line items within the claims that met these two
criteria. Because the terms “payments” and “charges” are generally applied to claims, we will
use “line payment amounts” and “line billed charges.”)

OBJECTIVE

Our objective was to determine whether certain Medicare payments in excess of charges that
WPS made to providers for outpatient services were correct.

SUMMARY OF FINDINGS

Of the 408 selected line items for which WPS made Medicare payments to providers for
outpatient services during our audit period, 128 were correct. Providers refunded overpayments

                                                i
on 13 line items totaling $459,380 before our fieldwork. The remaining 267 line items were
incorrect and included overpayments totaling $1,648,224, which the providers had not refunded
by the beginning of our audit.

Of the 267 incorrect line items:

   •    Providers reported incorrect units of service on 190 line items, resulting in overpayments
        totaling $1,399,404.

   •    Providers used HCPCS codes that did not reflect the procedures performed on 15 line
        items, resulting in overpayments totaling $115,151.

   •    Providers reported a combination of incorrect number of units of service claimed and
        incorrect HCPCS codes on 49 line items, resulting in overpayments totaling $87,142.

   •    Providers billed for unallowable services on eight line items, resulting in overpayments
        totaling $35,613.

   •    Providers did not provide the supporting documentation for five line items, resulting in
        overpayments totaling $10,914.

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
WPS made these incorrect payments because neither the Fiscal Intermediary Standard System
nor the CWF had sufficient edits in place during our audit period to prevent or detect the
overpayments.

RECOMMENDATIONS

We recommend that TrailBlazer:

    •   recover the $1,648,224 in identified overpayments,

    •   work with CMS to implement system edits that identify line item payments that exceed
        billed charges by a prescribed amount, and

    •   use the results of this audit in its provider education activities.

TRAILBLAZER HEALTH ENTERPRISES, LLC, COMMENTS

In written comments on our draft report, TrailBlazer described actions that it had taken or
planned to take to address our recommendations. TrailBlazer agreed with the
recommendation to recover the $1,648,224 in overpayments. After furnishing its written
comments, TrailBlazer notified us that providers had adjusted additional line items that we
had not selected as part of our audit. TrailBlazer added that it had accepted these adjustments


                                                   ii
and said that it would recover $1,749,440, which represents $101,216 more than the amount
of our recommended recovery.

TrailBlazer’s comments are included in their entirety as the Appendix.




                                               iii
                                                   TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION ...................................................................................................................... 1

      BACKGROUND .................................................................................................................. 1
        Medicare Contractors .................................................................................... 1
        Claims for Outpatient Services ....................................................................................... 1
        Wisconsin Physicians Service Insurance Corporation .................................................... 2

      OBJECTIVE, SCOPE, AND METHODOLOGY ................................................................ 2
        Objective ......................................................................................................................... 2
        Scope......................................................................................................... 2
        Methodology .................................................................................................................. .3

FINDINGS AND RECOMMENDATIONS ............................................................................. 3

      FEDERAL REQUIREMENTS .................................................................................. 4

      OVERPAYMENTS FOR SELECTED LINE ITEMS ......................................................... 5
        Incorrect Number of Units of Service ............................................................................. 5
        Incorrect Healthcare Common Procedure Coding System Codes .................................. 5
        Combination of Incorrect Number of Units of Service and
          Incorrect Healthcare Common Procedure Coding System Codes …………………...5
        Services Not Allowable for Medicare Reimbursement .................................................. 6
        Unsupported Services ..................................................................................................... 6

      CAUSES OF INCORRECT MEDICARE PAYMENTS ..................................................... 6

      RECOMMENDATIONS ...................................................................................................... 6

      TRAILBLAZER HEALTH ENTERPRISES, LLC, COMMENTS ..................................... 7

APPENDIX

      TRAILBLAZER HEALTH ENTERPRISES, LLC, COMMENTS




                                                                     iv
                                               INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.
Part B of the Medicare program helps cover medically necessary services such as doctors’
services, outpatient care, home health services, and other medical services. Part B also covers
some preventive services.

Medicare Contractors

CMS contracts with Medicare contractors to, among other things, process and pay Medicare
Part B claims submitted for outpatient services. 1 The Medicare contractors’ responsibilities
include determining reimbursement amounts, conducting reviews and audits, and safeguarding
against fraud and abuse. Federal guidance provides that Medicare contractors must maintain
adequate internal controls over automatic data processing systems to prevent increased program
costs and erroneous or delayed payments. To process providers’ outpatient claims, the Medicare
contractors use the Fiscal Intermediary Standard System and CMS’s Common Working File
(CWF). The CWF can detect certain improper payments during prepayment validation.

Claims for Outpatient Services

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains details regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of billable
units administered, as defined by the HCPCS code description. 2 In addition, providers should
charge Medicare and other payers, such as private insurance companies, uniformly. However,
Medicare uses an outpatient prospective payment system to pay certain outpatient providers. In
this method of reimbursement, the Medicare payment is not based on the amount that the
provider charges. Consequently, the billed charges (the prices that a provider sets for its
services) generally do not affect the current Medicare prospective payment amounts. Billed
charges generally exceed the amount that Medicare pays the provider. Therefore, a Medicare
payment that significantly exceeds the billed charges is likely to be an overpayment.


1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. In this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC, whichever is
applicable.
2
    HCPCS codes are used throughout the health care industry to standardize coding for medical procedures.


                                                          1
Wisconsin Physicians Service Insurance Corporation

As part of its Legacy Workload, Wisconsin Physicians Service Insurance Corporation (WPS)
processed some outpatient claims for Jurisdiction 4 during our audit period (January 2006
through June 2009). 3 Effective October 2010, the Legacy Jurisdiction 4 (Legacy J4) Workload
transitioned to TrailBlazer Health Enterprises, LLC (TrailBlazer), the Medicare contractor for all
States in Jurisdiction 4—Texas, New Mexico, Colorado, and Oklahoma. 4 Thus, the Legacy J4
claims that were originally processed by WPS will be adjudicated by TrailBlazer, and we are
issuing our report to TrailBlazer. During our audit period, WPS processed 55.6 million line
items for outpatient services that were transitioned to TrailBlazer.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether certain Medicare payments in excess of charges that
WPS made to providers for outpatient services were correct.

Scope

Of the approximately 55.6 million line items for outpatient services that WPS processed during
the period January 2006 through June 2009, 408 line items had (1) a Medicare line payment
amount that exceeded the line billed charge amount by at least $1,000 and (2) 3 or more units of
service. 5

We limited our review of WPS’s and TrailBlazer’s internal controls to those that were applicable
to the selected payments because our objective did not require an understanding of all internal
controls over the submission and processing of claims. Our review allowed us to establish
reasonable assurance of the authenticity and accuracy of the data obtained from the National
Claims History file, but we did not assess the completeness of the file.

Our fieldwork included contacting WPS in Omaha, Nebraska, as well as TrailBlazer in Dallas,
Texas, and the 68 providers in Jurisdiction 4 that received the selected Medicare payments.



3
 The WPS Legacy Workload had previously been processed by Mutual of Omaha. The Legacy Workload includes
claims submitted by providers who fall under the geographic jurisdiction of all 15 MACs.
4
  The Legacy Workload transition includes a significant number of providers that are Qualified Chain Providers, a
designation for providers located over a large geographic area that belong to multiple MAC jurisdictions. A
Qualified Chain Provider has the option to move all of its providers, regardless of geographic location, to the MAC
that covers the State in which the Qualified Chain Provider’s home office is located.
5
  A single Medicare claim from a provider typically includes more than one line item. In this audit, we did not
review entire claims; rather, we reviewed specific line items within the claims that met these two criteria. Because
the terms “payments” and “charges” are generally applied to claims, we will use “line payment amounts” and “line
billed charges.”


                                                          2
Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   used CMS’s National Claims History file to identify outpatient line items processed by
        WPS for providers that billed line items with (1) a Medicare line payment amount that
        exceeded the line billed charge amount by at least $1,000 and (2) 3 or more units of
        service; 6

    •   coordinated with WPS and TrailBlazer in determining the providers and line items
        associated with the Legacy J4 Workload;

    •   identified 408 line items totaling approximately $2.4 million that Medicare paid to 68
        providers;

    •   contacted the 68 providers that received Medicare payments associated with the selected
        line items to determine whether the information conveyed in the selected line items was
        correct and, if not, why the information was incorrect;

    •   reviewed documentation that the providers furnished to verify whether each selected line
        item was billed correctly;

    •   coordinated the calculation of overpayments with TrailBlazer; and

    •   provided the results of our review to TrailBlazer officials on November 15, 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                             FINDINGS AND RECOMMENDATIONS

Of the 408 selected line items for which WPS made Medicare payments to providers for
outpatient services during our audit period, 128 were correct. Providers refunded overpayments
on 13 line items totaling $459,380 prior to our fieldwork. The 267 remaining line items were
incorrect and included overpayments totaling $1,648,224, which the providers had not refunded
by the beginning of our audit.



6
 For this audit, we reviewed those line items that met the stated parameters. We applied those parameters to
unadjusted line items. In some cases, subsequent payment adjustments reduced the difference between payment and
charges to less than $1,000.

                                                       3
Of the 267 incorrect line items:

    •   Providers reported incorrect units of service on 190 line items, resulting in overpayments
        totaling $1,399,404.

    •   Providers used HCPCS codes that did not reflect the procedures performed on 15 line
        items, resulting in overpayments totaling $115,151.

    •   Providers reported a combination of incorrect number of units of service claimed and
        incorrect HCPCS codes on 49 line items, resulting in overpayments totaling $87,142.

    •   Providers billed for unallowable services on eight line items, resulting in overpayments
        totaling $35,613.

    •   Providers did not provide the supporting documentation for five line items, resulting in
        overpayments totaling $10,914.

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
WPS made these incorrect payments because neither the Fiscal Intermediary Standard System
nor the CWF had sufficient edits in place during our audit period to prevent or detect the
overpayments.

FEDERAL REQUIREMENTS

Section 1833(e) of the Social Security Act states: “No payment shall be made to any provider of
services … unless there has been furnished such information as may be necessary in order to
determine the amounts due such provider … for the period with respect to which the amounts are
being paid ….”

CMS’s Medicare Claims Processing Manual, Pub. No. 100-04 (the Manual), chapter 23,
section 20.3, states: “providers must use HCPCS codes … for most outpatient services.”
Chapter 25, section 75.5, of the Manual states: “… when HCPCS codes are required for
services, the units are equal to the number of times the procedure/service being reported was
performed.” 7 If the provider is billing for a drug, according to chapter 17, section 70, of the
Manual, “[w]here HCPCS is required, units are entered in multiples of the units shown in the
HCPCS narrative description. For example, if the description for the code is 50 mg, and 200 mg
are provided, units are shown as 4 ….”

Chapter 1, section 80.3.2.2, of the Manual states: “In order to be processed correctly and
promptly, a bill must be completed accurately.”



7
 Before CMS Transmittal 1254, Change Request 5593, dated May 25, 2007, and effective June 11, 2007, this
provision was located at chapter 25, section 60.5, of the Manual.


                                                      4
OVERPAYMENTS FOR SELECTED LINE ITEMS

Incorrect Number of Units of Service

Providers reported an incorrect number of units of service on 190 line items, resulting in
overpayments totaling $1,399,404. The following examples illustrate the incorrect units of
service:

       •   One provider billed Medicare for an incorrect number of units of service on four line
           items. Rather than billing 3 service units, the provider billed 90 service units. These
           errors occurred because of an incorrect multiplier in the provider’s billing system. As a
           result of these errors, WPS paid the provider $191,364 when it should have paid $5,187,
           an overpayment of $186,177.

       •   Another provider billed Medicare for an incorrect number of units of service on four line
           items. Rather than billing 40 service units, the provider billed 400 service units. These
           errors occurred because the provider’s chargemaster 8 was incorrect. As a result of these
           errors, WPS paid the provider $127,106 when it should have paid $10,563, an
           overpayment of $116,543.

Incorrect Healthcare Common Procedure Coding System Codes

Providers used HCPCS codes that did not reflect the procedures performed on 15 line items,
resulting in overpayments totaling $115,151. For example, because of an error in the
chargemaster, 1 provider billed Medicare for 12 line items with an HCPCS code (P9035)
involving plateletpheresis, 9 rather than using the correct HCPCS code (P9011) involving platelet
leukocyte reduction. As a result of this error, WPS paid the provider $39,180 when it should
have paid $6,912, an overpayment of $32,268.

Combination of Incorrect Number of Units of Service and
Incorrect Healthcare Common Procedure Coding System Codes

Providers reported a combination of incorrect number of units of service and incorrect HCPCS
codes on 49 line items. These errors resulted in overpayments totaling $87,142. For example, 1
provider billed Medicare for both an incorrect number of units of service and incorrect HCPCS
codes on 10 line items. Rather than billing between 1 and 2 service units of an injection of
doxorubicin hydrochloride (HCPCS code J9000), the provider billed between 10 and 20 service
units of an injection of doxorubicin hydrochloride for all lipid formulations (HCPCS code
J9001). As a result of these errors, WPS paid the provider $38,361 when it should have paid $0.
The provider refunded the entire incorrect payment of $38,361.


8
    A provider’s chargemaster contains data on every chargeable item or procedure that the provider offers.
9
 Plateletpheresis is the process of removing whole blood from a donor, separating the blood into its components,
keeping the platelets, and then returning the remaining blood components to the donor.


                                                           5
Services Not Allowable for Medicare Reimbursement

Providers incorrectly billed Medicare for eight line items for which the services rendered were
not allowable for Medicare reimbursement, resulting in overpayments totaling $35,613.

For example, one provider posted a filed claim to the wrong patient account because of a clerical
error, and for that reason the provider was paid twice for the same service. As a result of this
error, WPS paid the provider $16,591 when it should have paid $0, an overpayment of $16,591.

Unsupported Services

Five providers billed Medicare for five line items for which they did not provide supporting
documentation. The providers agreed to cancel the claims associated with the five line items and
refund the combined $10,914 overpayments received.

CAUSES OF INCORRECT MEDICARE PAYMENTS

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
WPS made these incorrect payments because neither the Fiscal Intermediary Standard System
nor the CWF had sufficient edits in place to prevent or detect the overpayments. In effect, CMS
relied on providers to notify the Medicare contractors of incorrect payments and on beneficiaries
to review their Medicare Summary Notice and disclose any overpayments. 10

On January 3, 2006, CMS required Medicare contractors to implement a Fiscal Intermediary
Standard System edit to suspend potentially incorrect Medicare payments for prepayment
review. As implemented, this edit suspends payments exceeding established thresholds and
requires Medicare contractors to determine the legitimacy of the claims. However, this edit did
not detect the errors that we found because the edit considers only the amount of the payment,
suspends only those payments that exceed the threshold, and does not flag payments that exceed
charges.

RECOMMENDATIONS

We recommend that TrailBlazer:

     •   recover the $1,648,224 in identified overpayments,

     •   work with CMS to implement system edits that identify line item payments that exceed
         billed charges by a prescribed amount, and

     •   use the results of this audit in its provider education activities.


10
  The Medicare contractor sends a Medicare Summary Notice—an explanation of benefits—to the beneficiary after
the provider files a claim for services. The notice explains the services billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.

                                                         6
TRAILBLAZER HEALTH ENTERPRISES, LLC, COMMENTS

In written comments on our draft report, TrailBlazer described actions that it had taken or
planned to take to address our recommendations. TrailBlazer agreed with the
recommendation to recover the $1,648,224 in overpayments. After furnishing its written
comments, TrailBlazer notified us that providers had adjusted additional line items that we
had not selected as part of our audit. TrailBlazer added that it had accepted these adjustments
and said that it would recover $1,749,440, which represents $101,216 more than the amount
of our recommended recovery.

TrailBlazer’s comments are included in their entirety as the Appendix.




                                                7
APPENDIX
                                                                                                            Page 1 of3


APPENDIX: TRAILBLAZER HEALTH ENTERPRISES, LLC, COMMENTS



                CA#SJ                                                                                 MEDICARE

 CENTERS for MEDICARE & MEDICAID SERVICES


     January 13, 2012

     Patrick .l. Cogley 

     Regional Inspector General fo r Audit Services 

     Onicc of Inspector General 

     Office of Aud it Services, Region VII 

     60 I East 1ih Street, Room 0429 

     Kansas City, MO 64 106 


     Report Number: A-07 -11 -04183

     Dear Mr. Cogley:

     We received the December 2 1, 20 11 , draft report entitl ed " Review of Medicare Payments
     Exceeding Charges for O utpatient Services Processed by Wisconsi n Physicians Service
     Insurance Co rporation but Transit ioned to TrailBlazer Health Enterpri ses, LLC, in ltuisd iction 4
     for the Period January I, 2006, Through June 30, 2009."            In the draft report, the OIG
     recommended that TrailBlazer:

             Recover th e $ 1,648,224 in identified overpayments; 

             Wo rk with eMS to implement system edits that identify line item payments that exceed 

             bi lled charges by a prescribed amount; and 

             Use the results of th is audit in provid er ed ucation activities. 


     Please consider the fo ll owi ng responses to these recommendations for lnc! usion in the final
     report:

         Recovery of Iden tified Overpayments: The 0 10 wo rked directly wi th the impacted
         prov iders to make claim adj ustments prior to the issuance of the draft audit report.
         TrailBlazer received the listing of 267 claim line adjustments which documented the
         calcu lated overpayment per claim line, agreeing in total to the $1,648,224 identified
         overpayment. Based on ollr rev iew of thi s fi le, we determ ined:
                 257 Claim Line Overpayments Full y Collected                       $ 1,649,880
                 3 Clai m Line Overpayments Billed but not Coll ected                    46,97 1
                 7 Claim Lines not Adjusted by Provider - To be adjusted by
                 TrailBl azer                                                            52,589
                         Total Overpayment - TrailBlazer                            $ 1,749,440
                         Total Overpayment - 01G                                      1,648,224
                 Difference                                                           $ 101 ,216

         TrailBlazer will provide the li sting of claims with our analysis so that the difference noted
         above can be rev iewed by the 0 10.



                                  TrailBlazer Health Enterp rises, LLC
                                    Executive Center 111 . 8330 lBJ freeway . Dallas. TX 75243-1213
                                            A Medicare Administrative Contractor
                                                                                                           Page 2 of3



Patrick 1. Cogley
January 13, 20 12
Page 2 0 [ 3




   Implement System Edits - Payments Exceed Charges: TrailBlazer will fo llow the OIG's
   recommendation and work with e MS to develo p system edits to identi fy li ne item payments
   that exceed line item charges by a prescribed amo unt.

   Provider Education Activities: TrailBlazer transitioned the providers from Wi sconsin
   Physicians Service Insurance Corporation (WPS) October 18. 201 0. Since the transiti on,
   TrailBlazer has made the rollowin g educational reso urces available to the transitioned
   prov iders:

   TraiLBlazer provides a ParI A Beginner's Guide to Medicare to assist providers with basic
   Pal1 A information to help ensure Part A cl aims are submitted properl y.
   http://www .trailblazerhealth.comlPublicationsfTraining%20ManuaUMedicareBasicsManual.
   lliIf
   TrailBlazer also offers the TrailBlazer Outpati ent Prospecti ve Payment System (OPPS)
   manual, whi ch includes po lic ics, billing information, billing examplcs, requirements, revenue
   codes, form locators, initiati ves and significant c hanges to the Medi care program .
   http://www.trai lblazerhealth.com/ Pub licatiollsfl ·raining%20Manual/ HosDlialOutpaticntManu
   !!1lliIf
   Pm1 A Beginner's Ouid e to Med icare and O PPS training are routinel y offe red thro ugh Web­
   based trainin g events. The PowerPoint presentations are avai labl e fo r download and , upo n
   completi on of these events, the recorded train ing sessions are posted on the TrailB lazer Web
   si te fo r reference.
   http://www.trailbla7.crhcalth.com/ Education/ EncoreWBTs.aspx?DomainID= 1

   TrailBlazer provides an OPPS specia lly page on the TrailBl azer Web si te, which offers a
   centrali zed location fo r provider resources to assist w ith proper cl aim s ubmission.
   http://www.trailblazcrhcalth.com/ Facilit y%20Types/OPPS/defauIt.aspx ?DomainID= 1

   TrailBlazer will devel op an articl e targeti ng our W PS prov iders hi ghl ighting these 010
   findin gs. Thi s al1icle wi ll be placed o n the TrailBlazer Web site, sent in li stserv and added to
   the TraiLBl azer eBII//etin fo r further exposure. In addition, these find ings will be addressed
   in futu re onlin e training sessio ns and various o utreach events when appropriate.
                                                                                         Page 3 of3




Patrick J. Cogley 

January 13,2012 

Page 3 oF3 



If you have any questions regarding our response, pl ease contact mc.

Sincerely,


~",~cd~D~
Mel issa Hal stead Rhoades 

Area Director & Medicare CFO 


cc: 	   Susan Oken, J4 MAC Contracting Ofticer's Representative, eMS
        Gil R. Glover, President & Chief Operating Officer, TrailBlazer
        Scott J. MaIming, Vice President, Financial Management Operations, TrailBlazer
        Kevin Bidwell, Vice President & Compliance Otlicer, TrailB lazer
